TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Published Guidance Program
                 Needs Additional Controls to Minimize Risks
                      and Increase Public Awareness



                                          March 4, 2008

                              Reference Number: 2008-10-075




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              March 4, 2008


 MEMORANDUM FOR CHIEF COUNSEL


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Published Guidance Program Needs
                             Additional Controls to Minimize Risks and Increase Public Awareness
                             (Audit #200710033)

 This report presents the results of our review to evaluate the Office of Chief Counsel (Counsel)
 process and related controls for developing tax guidance, including the pilot guidance program
 described in Notice 2007-17.1 This audit was conducted at the request of the Senate Finance
 Committee.

 Impact on the Taxpayer
 Counsel is responsible for interpreting the tax laws through its published guidance program,
 which is closely coordinated with the Department of the Treasury Office of Tax Policy.
 Although Counsel has increased the level of attention it places on the published guidance
 program, additional controls would further strengthen the process. These changes would
 minimize risks and increase public awareness of Counsel’s efforts to develop and issue guidance.
 A strong published guidance program will help taxpayers understand and meet their tax
 responsibilities and help the Internal Revenue Service (IRS) apply the tax laws correctly and
 uniformly.




 1
  Modifications of Commercial Mortgage Loans Held by a REMIC (Notice 2007-17), page 748 of Internal Revenue
 Bulletin 2007-12 (March 19, 2007). REMIC = Real Estate Mortgage Investment Conduit.
                     The Published Guidance Program Needs Additional Controls to
                            Minimize Risks and Increase Public Awareness




Synopsis
During the 2006-2007 business year,2 Counsel intensified its focus to develop more tax guidance,
including starting a pilot program to determine if guidance could be issued using fewer
resources. We reviewed Counsel’s process for identifying, prioritizing, and issuing various types
of guidance. Counsel’s internal controls should ensure that guidance projects are focused on
interpreting tax laws and addressing internal and external customer needs. However, additional
internal controls are needed to further strengthen the process, minimize risks, and increase public
awareness.
For example, although Counsel considers ideas from a wide variety of sources when selecting
guidance projects for its annual business plan, it can improve its written procedures to ensure that
the most important issues are selected. In addition, Counsel does not track all open projects on
its guidance business plan. While guidance projects are recorded on Counsel’s computer
inventory system, some projects are not included in the guidance business plan. As a result,
these projects have an increased risk of untimely actions, less management oversight, and less
public awareness.
In addition, Counsel needs to improve how it monitors projects after it has started working on
them. When a published guidance project is assigned, a paper project file is established to
provide a record of actions taken and to support decisions made during the development of the
guidance. However, Counsel could not locate all of the files we requested, and some of the
located files were missing information. Also, Counsel’s computer information system is not a
useful tool to monitor open projects. Counsel employees do not always enter information such
as milestone dates. In addition, missing computer logic checks allow the input of inconsistent
data, and summary reports are not used to manage the projects. As a result, management may
not identify delays in the process or gaps in activity. To compensate for weaknesses in the
computer system, management relies on other tools to track the status of guidance projects.
When Notice 2007-17 was issued, it received attention from Congress and the media, both of
which raised concerns about the influence of special interest groups in the IRS’ published
guidance program. We believe the pilot program explained in Notice 2007-17 does not present
an increased risk of influence by special interest groups in the selection of guidance projects.
The pilot program did not directly create tax guidance or circumvent existing internal controls.
In our opinion, the pilot program resulted in increased public awareness. However, Counsel
could have difficulty objectively evaluating the overall success of the pilot program because it
does not have an adequate baseline against which to compare the results.




2
    Counsel’s 2006-2007 business year began July 1, 2006, and ended June 30, 2007.
                                                                                                   2
                The Published Guidance Program Needs Additional Controls to
                       Minimize Risks and Increase Public Awareness




Recommendations
We recommended the Chief Counsel expand written organizational procedures for developing
and monitoring the guidance business plan, issue more frequent updates to and establish a
reasonable expectation in the Priority Guidance Plan, publish the annual solicitation notice for
guidance suggestions on any Federal Government website readily available to the public, review
and revise–if necessary–the written procedures for maintaining paper project files, ensure the
new computer tracking system provides management with complete and accurate information
necessary to monitor the guidance program, and develop written organizational procedures for
the pilot program described in Notice 2007-17, including a methodology by which to evaluate
the results if the process is continued.

Response
IRS management agreed with six of our recommendations and partially agreed with one
recommendation. Counsel will revise its written procedures for the guidance process to include
a discussion of the steps for developing and monitoring the Priority Guidance Plan. Counsel
plans to revise its written procedures to support the internal business goals in the Priority
Guidance Plan. Further, Counsel plans to publish the annual solicitation notice for guidance
suggestions on a Federal Government web site readily available to the general public. Counsel
will review, and if necessary revise, the written procedures for maintaining paper project files
and provide employees with additional training materials on file maintenance and storage. In
addition, Counsel will continue to improve the manner in which published guidance is tracked on
the computer inventory system. Finally, Counsel plans to develop written procedures if the pilot
program becomes part of the future guidance process. The Chief Counsel partially agreed to our
recommendation to issue more frequent updates to the plan, by responding that Counsel will
discuss with the Office of Tax Policy the issue of publishing more frequent updates to the
Priority Guidance Plan and including long-term projects. Although Counsel provided an
alternative corrective action, we believe the planned action will meet our requirements.
Management’s complete response to the draft report is included as Appendix VI.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                               3
                      The Published Guidance Program Needs Additional Controls to
                             Minimize Risks and Increase Public Awareness




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          More Controls and Accountability Are Needed for
          Creating and Monitoring the Guidance Business Plan .................................Page 5
                    Recommendations 1 through 3:.........................................Page 10

                    Recommendation 4:........................................................Page 11

          Counsel Has Produced More Guidance Projects, but Individual
          Guidance Projects Are Not Effectively Monitored.......................................Page 11
                    Recommendation 5:........................................................Page 14

                    Recommendation 6:........................................................Page 15

          The Pilot Program Increased Public Awareness Without
          Creating Additional Risk, but Success Could Not Be
          Objectively Measured ...................................................................................Page 15
                    Recommendation 7:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Office of Chief Counsel General Process to Evaluate
          Suggestions for the 2007-2008 Guidance Business Plan..............................Page 23
          Appendix V – Office of Chief Counsel Internal Controls for the
          Development of Published Guidance............................................................Page 25
          Appendix VI – Management’s Response to the Draft Report ......................Page 26
         The Published Guidance Program Needs Additional Controls to
                Minimize Risks and Increase Public Awareness




                        Abbreviations

FY                Fiscal Year
I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
OTP               The Department of the Treasury Office of Tax Policy
TIGTA             Treasury Inspector General for Tax Administration
                   The Published Guidance Program Needs Additional Controls to
                          Minimize Risks and Increase Public Awareness




                                           Background

The Internal Revenue Service (IRS) mission is to provide America’s taxpayers with top-quality
service by helping them understand and meet their tax responsibilities and by applying the tax
laws with integrity and fairness to all. At the heart of sound tax administration is the
interpretation of tax laws. The mission of the IRS Office of Chief Counsel (Counsel) is to serve
America’s taxpayers fairly and with integrity by providing correct and impartial interpretation of
the internal revenue laws and the highest quality legal advice and representation for the IRS.
Counsel’s primary means of providing interpretation of the internal revenue laws is its published
guidance program, which is closely coordinated with the Department of the Treasury Office of
Tax Policy (OTP).
Counsel conducts a variety of guidance projects that could result in publication of regulations,
revenue rulings, revenue procedures, and notices, as follows:
    •   Regulations – guidance for new legislation and issues that arise with respect to existing
        Internal Revenue Code (I.R.C.) sections (e.g., a court decision that invalidates part of a
        regulation, a new financial product, or an abusive transaction).
    •   Revenue Rulings – official interpretations of the I.R.C.; related statutes; tax treaties; and
        regulations, as applied to a specific set of facts.
    •   Revenue Procedures – official statements of procedures that affect the rights or duties of
        taxpayers or other members of the public under the I.R.C., related statutes, tax treaties,
        and regulations or information that should be a matter of public knowledge.
    •   Notices – public pronouncements that may contain guidance that involves substantive
        interpretations of the I.R.C. or other provisions of the law.
Each year, Counsel creates a guidance business plan that identifies the most important taxpayer
and tax administration issues needing clarification. The guidance business plan consists of three
categories: the Priority Guidance Plan, ministerial rulings,1 and Associate lists. The Priority
Guidance Plan represents the largest portion and describes to the public the projects expected to
be completed by the end of the guidance business year, which runs from July 1 to June 30.
Ministerial rulings are routine guidance published each year, including adjustments to Federal
Government rate tables, interest rates, and bond factor amounts used in the I.R.C. Ministerial
ruling projects are made public in an appendix to the Priority Guidance Plan.

1
 The Priority Guidance Plan is jointly announced by the OTP, the IRS Commissioner, and the IRS Chief Counsel.
The 2007-2008 Priority Guidance Plan with the appendix for ministerial rulings can be found in the Electronic
Reading Room of the IRS web site (IRS.gov).
                                                                                                       Page 1
                     The Published Guidance Program Needs Additional Controls to
                            Minimize Risks and Increase Public Awareness



Additionally, projects on the Associate lists include those projects not expected to be completed
during the current business year and projects involving sensitive transactions.2 These projects
are worked within the seven Associate Counsel offices.
Since the 2003-2004 business year, the allocation of projects among the 3 categories has
remained fairly consistent: approximately 66 percent to Priority Guidance Plans, 15 percent to
ministerial rulings, and 19 percent to the Associate lists. Table 1 shows the composition of the
last four guidance business plans at the end of each business year.
                       Table 1: Composition of Guidance Business Plans
     Guidance                  Priority Guidance         Ministerial
                      Total                                                 Associate Lists
     Business                          Plan                Rulings
                    Projects
        Year
                     for All             Percentage           Percentage           Percentage
      (July 1 –               Projects              Projects             Projects
                   Categories             of Total              of Total            of Total
      June 30)
        2003-
                       527          351          66.6%            81          15.4%            95          18.0%
          2004
        2004-
                       484          325          67.1%            70          14.5%            89          18.4%
          2005
        2005-
                       452          293          64.8%            66          14.6%            93          20.6%
          2006
        2006-
                       468          316          67.5%            69          14.7%            83          17.7%
          2007
     Averages          483          321          66.5%            72          14.9%            90          18.6%
    Source: Evaluation of Counsel’s guidance computer inventory system.

In Calendar Year 2006, Counsel issued a private letter ruling3 to a taxpayer because the Real
Estate Mortgage Investment Conduit regulations4 did not specifically address certain situations
for financial institutions that issued commercial loans. An industry association asked Counsel to
consider updating the regulations. After this meeting, Counsel believed it would be beneficial to
seek information from the public to enable Counsel to better understand certain tax situations and
to determine whether it should issue published guidance. Counsel believed upfront public
participation might enable it to develop guidance that otherwise would not be started. In
addition, Counsel believed this process would help it use its staff resources more efficiently
because some of the background research would be provided by the public.


2
  For an example of a sensitive transaction, see Transaction of Interest – Contribution of Successor Member Interest
(Notice 2007-72), page 544 of Internal Revenue Bulletin 2007-36 (September 4, 2007).
3
  A private letter ruling is a written determination issued to a taxpayer by Counsel that interprets and applies the tax
laws to the taxpayer’s specific set of facts. Written determinations without proprietary (“Official Use Only”)
information are made available to the public and can be found in the Electronic Reading Room of the IRS web site
(IRS.gov). However, pursuant to 26 U.S.C. § 6110(k)(3), such items cannot be used or cited as precedent.
4
  Treasury Regulation Section 1.860G-2 (February 11, 1993).
                                                                                                                Page 2
                   The Published Guidance Program Needs Additional Controls to
                          Minimize Risks and Increase Public Awareness



In coordination with the OTP in Calendar Year 2006, Counsel launched a pilot program using
the Real Estate Mortgage Investment Conduit regulations. The pilot program is described in
Notice 2007-17,5 and Counsel advised us it has three basic steps: develop the concept and issue
a notice to the public, evaluate the public submissions, and consider changes to the existing
regulations.
Several news articles questioned this pilot program, including a New York Times article6 that
stated the IRS is allowing tax lawyers and accountants who create tax shelters and exploit tax
loopholes to take the lead in writing new tax laws. In a letter to the Treasury Inspector General
for Tax Administration (TIGTA), the Senate Finance Committee expressed concern that the IRS
may be putting special interests before the public’s interest when developing published tax
guidance. The Committee asked the TIGTA to review the IRS’ published guidance program and
the pilot program described in Notice 2007-17.
This review7 was performed at the Counsel offices in Washington, D.C., during the period
June 2007 through January 2008. We also interviewed representatives from the IRS Large and
Mid-Size Business Division, Small Business/Self-Employed Division, Tax Exempt and
Government Entities Division, Wage and Investment Division, Office of Appeals, and Office of
the National Taxpayer Advocate and representatives from the American Bar Association, the
American Institute of Certified Public Accountants, and the Mortgage Bankers Association. In
addition, we coordinated with the Treasury Office of Inspector General, which reviewed the
process and related controls for developing tax guidance within the Department of the Treasury.
The Treasury Office of Inspector General will be issuing a separate audit report.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
  Modifications of Commercial Mortgage Loans Held by a REMIC (Notice 2007-17), page 748 of Internal Revenue
Bulletin 2007-12 (March 19, 2007). REMIC = Real Estate Mortgage Investment Conduit.
6
  Johnston, David Cay. I.R.S. Letting Tax Lawyers Write Rules. The New York Times, March 9, 2007.
7
  Our review focused on the process and internal controls for the published guidance program and did not evaluate
Counsel’s decisions to use specific language within published tax guidance.
                                                                                                          Page 3
                     The Published Guidance Program Needs Additional Controls to
                            Minimize Risks and Increase Public Awareness




                                       Results of Review

During the 2006-2007 business year,8 Counsel intensified its focus to develop more tax guidance,
including starting a pilot program to determine if guidance could be issued using fewer
resources. We reviewed Counsel’s process for identifying, prioritizing, and issuing various types
of guidance. Counsel’s internal controls should ensure that guidance projects are focused on
interpreting tax laws and addressing internal and external customer needs. However, additional
internal controls are needed to further strengthen the process, minimize risks, and increase public
awareness.
For example, although Counsel considers ideas from a wide variety of sources when selecting
guidance projects for its annual business plan, it can improve its written procedures to ensure that
the most important issues are selected. In addition, Counsel does not track all open projects on
its guidance business plan. While guidance projects are recorded on Counsel’s computer
inventory system, some projects are not included in the guidance business plan. As a result,
these projects have an increased risk of untimely actions, less management oversight, and less
public awareness.
In addition, Counsel needs to improve how it monitors projects after it has started working on
them. When a published guidance project is assigned, a paper project file is established to
provide a record of actions taken and to support decisions made during the development of the
guidance. However, Counsel could not locate all of the files we requested, and some of the
located files were missing information. Also, Counsel’s computer information system is not a
useful tool to monitor open projects. Counsel employees do not always enter information such
as milestone dates. In addition, missing computer logic checks allow the input of inconsistent
data, and summary reports are not used to manage the projects. As a result, management may
not identify delays in the process or gaps in activity. To compensate for weaknesses in the
computer system, management relies on other tools to track the status of guidance projects.
When Notice 2007-17 was issued, it received attention from Congress and the media, both of
which raised concerns about the influence of special interest groups in the IRS’ published
guidance program. We believe the pilot program explained in Notice 2007-17 does not present
an increased risk of influence by special interest groups in the selection of guidance projects.
The pilot program did not directly create tax guidance or circumvent existing internal controls.
In our opinion, the pilot program resulted in increased public awareness. However, Counsel
could have difficulty objectively evaluating the overall success of the pilot program because it
does not have an adequate baseline against which to compare the results.


8
    Counsel’s 2006-2007 business year began July 1, 2006, and ended June 30, 2007.
                                                                                             Page 4
                   The Published Guidance Program Needs Additional Controls to
                          Minimize Risks and Increase Public Awareness



More Controls and Accountability Are Needed for Creating and
Monitoring the Guidance Business Plan
The process Counsel uses to develop and monitor its annual published guidance business plan
does not provide assurance that the most important projects are selected or that management and
the public are aware of all ongoing projects. Specifically, Counsel:
    •   Has few written procedures to request and evaluate suggestions for the guidance business
        plan.
    •   Provides limited public information about the planned guidance projects.
    •   Provides limited public information about suggestions received for guidance
        consideration.
These conditions increase the risk that taxpayers will not properly comply with tax obligations
and that the IRS may improperly interpret the tax code as part of its tax administration
responsibilities. In addition, the public may be unaware that Counsel is developing guidance and
may not have the opportunity to provide relevant information. Further, Counsel could strengthen
its guidance process if it implemented a methodology to document the merits of suggestions
from the IRS and the public when it considers projects for the business plan.

Counsel has few written procedures to request and evaluate suggestions for the
guidance business plan
Although Counsel follows a process to request and evaluate suggestions, it has few written
organizational procedures to ensure consistency and clarity. Furthermore, Counsel relies on the
personal judgment of officials from Counsel, the Department of the Treasury, and other IRS
divisions to prioritize suggestions. This subjective process could make it difficult for Counsel to
explain how it decided to initiate a specific guidance project, particularly if the project(s) appears
to benefit a small group of taxpayers.
The guidance business plan should address the most important taxpayer and tax administration
issues. For example, Counsel includes guidance that is necessary because of recent legislation,
such as changes to pension plans. Potential guidance suggestions can come from various internal
and external sources9 and can involve various tax situations. Some issues may be suggested by
multiple sources, which can commonly happen when new legislation is passed. Other
suggestions may come from changing industry practices or tax court decisions.




9
 Internal sources include employees within Counsel, IRS operations, and the Department of the Treasury. External
sources include taxpayers, associations, trade groups, accounting/law firms, and other government agencies.
                                                                                                         Page 5
                      The Published Guidance Program Needs Additional Controls to
                             Minimize Risks and Increase Public Awareness



In developing its 2007-2008 business plan,10 Counsel used formal and informal methods to
request guidance suggestions and to explain that suggestions can be submitted any time. The
common methods for requesting and encouraging guidance suggestions from the various sources
included:
       •   Annual solicitation notice to the public.
       •   Reminder paragraph in the Priority Guidance Plans provided to the public, including
           subsequent updates also provided to the public.
       •   Public speeches and participation at public conferences, seminars, and panels.
       •   Discussions with external stakeholders involving guidance or other Counsel activity.
           This can include discussions at public hearings for published guidance.
       •   Annual reminder to IRS operations and their Division Counsels, and periodic meetings or
           other contact between IRS operations and Counsel personnel.
       •   Annual reminder to Counsel personnel and periodic meetings and coordination activities
           within Counsel and with Department of the Treasury personnel. Some offices have a
           template to record the information, but suggestions can also be informally communicated
           through the employee’s management chain.
Associate Chief Counsel offices are responsible for initially evaluating and selecting new
guidance suggestions, as well as projects already being worked within their assigned tax areas.
Initial suggestions are then coordinated among Associate offices and discussed with the Deputy
Chief Counsels, the Chief Counsel, and Department of the Treasury officials. Counsel and the
OTP will then discuss and agree on the projects that will be included on the Priority Guidance
Plan. Appendix IV presents an outline of the process Counsel used to evaluate suggestions for
the 2007-2008 business plan.
IRS operations submitted 142 suggestions for the 2007-2008 guidance business plan, and
Counsel incorporated 94 (66 percent). Counsel advised us that it cannot select every suggested
project because it must balance what it can reasonably accomplish with its staff resources. In
addition, Counsel advised us it often receives similar suggestions from different sources, so it
may consolidate several suggestions into a single project. Table 2 shows the number of
suggestions by each IRS operation and the number Counsel included in its 2007-2008 guidance
business plan.




10
     The 2007-2008 business plan began July 1, 2007, and will end June 30, 2008.
                                                                                             Page 6
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



Table 2: IRS Operations’ Suggestions for the 2007-2008 Guidance Business Plan
                                                                        Number of
                                                      Number of         Suggestions
                    IRS Operation                     Suggestions       Included in      Percentage
                                                       Submitted       the Guidance
                                                                       Business Plan
      Large and Mid-Size Business Division                72                41            56.9%
      Small Business/Self-Employed Division               43                32            74.4%
      Wage and Investment Division                         6                 6            100.0%
      Office of Appeals                                   14                 9            64.3%
      National Taxpayer Advocate                           7                 6            85.7%
                     TOTALS                               142               94             66.2%
    Source: Interviews with IRS operations personnel and applicable Division Counsels.

Because the process it uses for evaluating and selecting guidance projects is subjective, Counsel
should establish written procedures for evaluating the projects it is considering and documenting
its selection process. The written procedures for evaluating the projects should include
suggested factors for determining priority, such as the number of taxpayers affected, recent tax
law changes, stakeholders’ concerns, revenues collected, critical or urgent need for guidance, etc.
Written organizational procedures would help establish consistency and accountability and
provide more assurance that the most important suggestions were selected.

Counsel provides limited public information about the planned guidance projects
When the annual guidance business plan is finalized, Counsel publishes one part of it, the
Priority Guidance Plan, on the IRS web site (IRS.gov). This notification allows the public to be
aware of the guidance projects Counsel intends to publish that plan year. It also gives the public
the opportunity to provide input for consideration during the development of any particular
guidance project.
However, some of Counsel’s practices make it difficult for the public to obtain information about
the guidance projects being worked during the guidance plan year. For example, some open
projects are not included on the Priority Guidance Plan but are nevertheless worked by the
Associate offices. This may be occurring because Counsel primarily includes on the Priority
Guidance Plan only those projects expected to be published in the current business year. Projects
initially expected to last beyond the plan year may not be placed on the Priority Guidance Plan
until the guidance is issued. For example, in Fiscal Year (FY) 2006, 83 projects were not
identified to the public until the guidance was published. Counsel advised us that some of the
projects involved sensitive tax issues, such as abusive tax shelters, but others were discretionary
projects.
We agree that those projects involving sensitive transactions should not be publicized in the
Priority Guidance Plan. However, the projects that do not involve sensitive transactions should
                                                                                                      Page 7
                    The Published Guidance Program Needs Additional Controls to
                           Minimize Risks and Increase Public Awareness



be disclosed to the public. Keeping these projects within Counsel’s office until the guidance is
published is not in line with Counsel’s policy of developing and publishing guidance in a manner
transparent to the public. As a result, there is less opportunity for public scrutiny and an
increased risk of perceived undue influence in the selection of guidance projects.
Before 2004, Counsel updated the Priority Guidance Plan quarterly. A lack of resources required
Counsel to start updating the Priority Guidance Plan only semiannually and to not provide a final
list of the guidance projects published at each year’s end. Because the Priority Guidance Plan
does not include any projects that were added after the updated Plan was published, the public
does not have access to current information about what guidance issues Counsel is considering or
a complete list of the guidance that was published during the year. While we recognize the
importance of identifying those projects that will be completed in 1 year on the Priority
Guidance Plan, the public and the IRS may have an interest in other open projects.
Another Counsel practice results in different expectations between the Priority Guidance Plan
and Counsel’s internal business goal. For the Priority Guidance Plan, Counsel advises the public
that the listed projects will be issued by the end of each guidance plan year (June 30). However,
Counsel’s business goal is to publish 76 percent of the projects on the Priority Guidance Plan.
Table 3 shows the numbers and percentages of items published from the Priority Guidance Plan
for the last 4 guidance business years. Last year, Counsel exceeded its business goal and
published 97 percent of the projects from the 2006-2007 Priority Guidance Plan. However,
Counsel did not meet its goal during the prior 3 years.11 Counsel management advised us they
focused greater attention in this area last year.
         Table 3: Items Published Related to the Initial Priority Guidance Plan
                                   Number of Items           Number of Items
              Guidance
                                     Listed on the           Published From            Percentage of
            Business Year
                                   Priority Guidance           the Priority           Items Published
          (July 1 – June 30)
                                          Plan                Guidance Plan
              2003-2004                   385                      283                      73.5%
              2004-2005                   349                      211                      60.5%
              2005-2006                   254                      161                      63.4%
              2006-2007                   264                      255                      96.6%
       Source: Counsel’s Business Performance Reviews from December 10, 2004, to October 3, 2007.

Furthermore, not including projects on the guidance business plan can cause difficulty in
assigning organizational accountability and accurately determining accomplishments. We
analyzed Counsel’s computer inventory system as of July 11, 2007, and identified 167 guidance
projects12 that were still in development (open) but not included in any category of the most

11
   Counsel’s business goal was changed in 2005-2006, from a goal of 76 percent of the items on the final Priority
Guidance Plan that included updates, to a goal of 76 percent of the items on the initial Priority Guidance Plan.
12
   This includes 62 regulation, 41 notice, 31 revenue procedure, and 33 revenue ruling projects.
                                                                                                            Page 8
                    The Published Guidance Program Needs Additional Controls to
                           Minimize Risks and Increase Public Awareness



recent (2006-2007) guidance business plan. These projects were started in the last 4 business
years and have been open an average of about 14 months.13
In addition, over the last 4 business years, 74 guidance projects14 have been published without
having been listed in any category of a guidance business plan. Counsel does not have an
accurate control list of the projects being worked. Counsel needs to develop a system to ensure
that open projects are added to the guidance business plan regularly, so that the public is aware
of the issues Counsel is considering before it publishes guidance. Because these open and closed
projects were not on any guidance business plan, the public may be unaware that Counsel
developed or is developing guidance on these issues. Furthermore, Counsel’s business plan
should contain all projects being worked to improve accountability for the timely completion of
projects.

Counsel provides limited public information about suggestions received for
guidance consideration
Counsel provides all guidance suggestions received from the public for business plan
consideration to three tax news services15 that are available to anyone who subscribes to the news
services. Although tax professionals we spoke with did not encounter problems obtaining this
information because they subscribe to the tax news services, the general public may be unaware
of these services.
Counsel has another option for requesting and providing public suggestions for new published
guidance. For publishing regulation guidance, all Federal Government agencies were directed to
begin using a centralized web site (Regulations.gov) that automatically attaches all public
comments.16 Counsel already uses this centralized web site to publish its regulation guidance.
However, the web site is not restricted to regulations, and Counsel could expand its use to
include requests for public suggestions for new guidance projects. This option would be a more
accessible, less expensive, and easier means of communication with the general public.




13
   The projects range from being open 12 days to about 4 years, with an average of 189 staff hours applied (range
from 1 staff hour to 1,421 staff hours).
14
   This includes 3 regulation, 36 notice, 22 revenue procedure, and 13 revenue ruling projects.
15
   Tax Analysts, Commerce Clearing House, and Bureau of National Affairs.
16
   E-Government Act of 2002 (Public Law 107-347, 44 U.S.C. Ch 36).
                                                                                                            Page 9
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



Recommendations
The Chief Counsel should:
Recommendation 1: Expand written organizational procedures for developing and
monitoring the guidance business plan to establish accountability, ensure consistency, and
increase public awareness. These procedures should address:
   •   Requesting and evaluating guidance suggestions for consideration in development of the
       guidance business plan.
   •   Reconciling all projects between the guidance business plan and the computer inventory
       system.
       Management’s Response: IRS management agreed with this recommendation.
       Management will revise the written procedures for the guidance process to include a
       discussion of the steps for developing and monitoring the Priority Guidance Plan. This
       includes the processes for soliciting and evaluating guidance suggestions and reporting
       on the annual business plan.
Recommendation 2: Issue more frequent updates to the Priority Guidance Plan that list all
projects, excluding projects with sensitive transactions, regardless of whether the publication is
expected for the current business year. For example, the Plan could also show in a separate
attachment the long-term projects that are expected to take longer than 1 year to complete.
       Management’s Response: IRS management partially agreed with this
       recommendation. Management will discuss with the OTP the issue of publishing more
       frequent updates to the Priority Guidance Plan and including long-term projects. If
       agreed, changes will be made starting with the 2008-2009 Priority Guidance Plan.
       Office of Audit Comment: Counsel provided an alternative corrective action to what
       we had proposed in Recommendation 2 because of the need to obtain the Department of
       the Treasury’s agreement to any changes to the Priority Guidance Plan. We believe
       Counsel’s planned action will meet our requirements.
Recommendation 3: Establish a reasonable expectation in the Priority Guidance Plan that
matches internal business goals. This new process should be supported by written organizational
procedures.
       Management’s Response: IRS management agreed with this recommendation.
       Management will revise written procedures to ensure that expectations in the Priority
       Guidance Plan are consistent with internal business goals.




                                                                                            Page 10
                   The Published Guidance Program Needs Additional Controls to
                          Minimize Risks and Increase Public Awareness



Recommendation 4: Publish the annual solicitation notice for guidance suggestions on any
Federal Government website readily available to the public.
         Management’s Response: IRS management agreed with this recommendation.
         Management will publish the annual solicitation notice for guidance suggestions on a
         Federal Government website readily available to the general public.

Counsel Has Produced More Guidance Projects, but Individual
Guidance Projects Are Not Effectively Monitored
Counsel’s process for working individual guidance projects (researching, developing, and issuing
guidance) includes extensive involvement with the Department of the Treasury, IRS divisions,
and the public. This communication provides some assurance that published guidance projects
address tax administration issues and meet internal and external customer needs. However,
while Counsel’s internal controls are adequate to protect against influence from special interest
groups during the development of guidance, Counsel still needs to strengthen its internal controls
for managing guidance projects. For example, Counsel needs to improve how the paper project
files are maintained because they provide the rationale and support for decisions Counsel makes
during the development of guidance. In addition, Counsel needs an effective and efficient
computer inventory system to alert management to potential problems and delays associated with
publishing guidance.

Management monitoring of guidance projects has increased
Prior to FY 2006, Counsel published more than 300 guidance projects annually, while steadily
improving efficiency by using fewer staff resources. In FY 2006, there was a significant
decrease in the number of projects published and efficiency. This was noticeably reversed by
FY 2007. Table 4 shows Counsel’s operational measures and an efficiency calculation for the
published guidance program since FY 2003.
              Table 4: Published Guidance Program Operational Measures
                  Operational                                   Actual for Fiscal Year
                   Measures                       2003         2004     2005       2006             2007
      Total Full-Time Equivalents17                247          217         202          192         179
      Total Published Guidance                     332          320         323          269         391
      Guidance per Full-Time
                                                   1.34        1.47         1.60        1.40         2.18
      Equivalent18
     Source: Counsel’s Business Performance Reviews from December 8, 2003, to December 13, 2007.


17
   A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For FY 2007, 1 Full-Time Equivalent was equal to 2,080 staff hours.
18
   TIGTA calculation; total published guidance divided by total Full-Time Equivalents.
                                                                                                           Page 11
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



Counsel acknowledges it was able to report more published guidance because an improved
computer inventory query allowed it to better identify completed projects. However,
management also increased their attention and oversight for the published guidance program.
For example, in FY 2007, Counsel established biweekly briefing sessions with each Associate
office and biweekly joint briefings with the OTP to discuss the progress and coordination of
guidance projects. In addition, Counsel established eight milestone dates to be reviewed during
the biweekly briefings. This increased management attention is an important step in
strengthening the published guidance program.

Internal controls are adequate to balance public influence
Counsel has solicited and unsolicited communication with public stakeholders during the
development of guidance because it cannot work in isolation and may need background and
research information from external stakeholders to draft equitable and practical guidance.
Therefore, Counsel will always face the risk of influence by special interest groups that may
compete with the best interest of the Federal Government and tax administration. Counsel must
minimize this risk by maintaining strong internal controls that ensure all sides of a tax
administration issue are considered when determining what guidance is issued.
Overall, Counsel has adequate internal controls in place to balance public influence. For
example, there are controls over contact between Counsel and the public while the guidance is
being developed, and the guidance is reviewed by several layers of management both within the
IRS and Department of the Treasury before it is approved and published. We made this
assessment through research of the process, review of a judgmental sample of 25 guidance
projects, and discussions with Counsel, IRS operations, and public stakeholders. A description
of Counsel’s internal controls is presented in Appendix V.

Some paper project files could not be located and others were incomplete
Counsel’s Internal Revenue Manual, last updated in Calendar Year 2004, outlines the process to
develop tax guidance, including maintenance of a paper project file. When a published guidance
project is assigned, a paper project file is established to provide a record of actions taken and to
support decisions made during development of the guidance. Counsel’s guidance Manual lists
the contents of the project file, which should include applicable case history sheets, draft
versions of the guidance documents, administrative memoranda and forms, coordination notes,
circulation and review control sheets, and public communication.
We requested the paper project files for a sample of 25 completed guidance projects. However,
Counsel could not locate 5 (20 percent) of the 25 cases we requested. Although some files may
be missing because of the June 2006 flood of the IRS Headquarters building at 1111 Constitution
Avenue, all files are subject to disaster recovery and retention requirements. In addition, the
paper project files we received did not always contain expected items required by Counsel’s
guidance Manual. After contacting a drafting team member or other source, we were able to find

                                                                                            Page 12
                    The Published Guidance Program Needs Additional Controls to
                           Minimize Risks and Increase Public Awareness



some missing information or obtain some substitute information for our review. However,
Counsel’s inability to locate and maintain paper project files increases the risk that adequate
support is not available to substantiate that the guidance process was properly followed and the
rationale behind the guidance position is sound.
Some employees advised us the Manual was not helpful, and that they rely more on other
personnel for directions. This word-of-mouth direction can result in inconsistently documented
and maintained project files. The missing project files demonstrate a potential problem with the
control and retention of closed projects. Counsel is planning a nationwide continuing legal
education program in August 2008 that will provide an opportunity to coordinate the release of
an updated guidance Manual and provide timely refresher training for guidance paper project file
creation, maintenance, and storage.

The computer inventory system is not effectively used to monitor guidance
projects
The Counsel Automated System Environment Management Information System controls
inventory for all Counsel programs, including litigation, technical advice, private letter rulings,
and published guidance.19 Although Counsel’s computer inventory system should be the primary
management tool with which to monitor development of guidance projects, it is not effective.
The computer inventory system did not contain complete or accurate data about the ongoing
guidance projects. For example:
     •   The computer system is overly complex, with more than 50 status codes used to track
         projects at each stage in the guidance development process. However, most of these
         status codes are rarely used and may be unnecessary.
     •   In response to a previous TIGTA report,20 Counsel established target and milestone dates.
         However, the corrective action did not allow management to effectively monitor the
         status of projects because the target and milestone dates were rarely entered. We
         determined that fewer than 4 percent of the 468 guidance projects on the
         2006-2007 guidance business plan had some of these dates. In addition, the system does
         not have completion dates for these targets and milestones to evaluate accomplishments.
         Further, these dates are in a restricted computer data file, which is unavailable to many
         employees, including the drafting team. As a result, Counsel could not use the computer
         information to determine if the projects were on schedule.



19
   This computer system contains specific data files for guidance project details, business plans, assignments, and
time reporting.
20
   Improvements to the Office of Chief Counsel’s Published Guidance Process Would Enhance Guidance Provided
to Taxpayers and the Internal Revenue Service (Reference Number 2003-10-081, dated March 2003).
                                                                                                           Page 13
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



   •   The system may generate unreliable data because of missing computer checks. We
       evaluated a computer extract and found several potential problems on the system. For
       example, the computer allows employees to charge time to closed projects, employees
       can have open assignments although their responsibilities have changed or they have
       separated from the organization, a project can be closed before the date on which the
       guidance was published, and closed projects can be listed as open on the system.
   •   Computer inventory reports are not helpful to management because they do not include
       necessary information, such as milestone and completion dates, with which to monitor
       the guidance program. In response, management is using manually prepared reports to
       monitor guidance projects.
The computer system is not programmed to identify situations requiring management attention.
For example, the ability to identify gaps in activity for employee time was not used. Using a
computer extract and a sample of 25 guidance projects, we identified 16 projects with at least
1 gap (ranging from 28 calendar days to approximately 2.5 years) in which no employees applied
time to the project.
We could not identify specific causes or justifications for these gaps due to missing information
on the computer system and in the project files. However, Counsel employees advised us that
the gaps occurred for a variety of reasons, including:
   •   Changing work priorities.
   •   Waiting for approval to start the final regulation.
   •   Changing employee assignments.
   •   Waiting for approvals from the Chief Counsel, IRS operations, and Department of the
       Treasury offices to publish guidance.
Guidance projects can take a long time to complete. To publish guidance, the 25 projects in
our sample took an average of about 1.9 years, ranging from 31 days to about 4.4 years.
Management needs to be able to quickly identify delays in publishing guidance. Our results are
similar to those in a 2007 Counsel task force report that recommended better data input,
standards for data input, different formatting, and different fields to produce the desired
management reports. Counsel has already started preliminary steps to develop a new computer
tracking system for published guidance items.

Recommendations
The Chief Counsel should:
Recommendation 5: Review and revise, if necessary, the written procedures for maintaining
paper project files to ensure there is adequate available support for the development of guidance.

                                                                                          Page 14
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



In addition, the Chief Counsel should provide employees with refresher training for guidance
paper project file maintenance and storage.
       Management’s Response: IRS management agreed with this recommendation.
       Management will review and, if necessary, revise the written procedures for maintaining
       paper project files. Management will prepare and provide employees with additional
       training materials on file maintenance and storage.
Recommendation 6: Ensure the new computer tracking system provides management with
complete and accurate information necessary to monitor the guidance program. Required data
should be entered and available to applicable users, computer checks should be established for
consistency, computer summary reports should be accurate and beneficial to management, and
system capabilities should be used to identify situations for management attention. In addition,
written organizational procedures for entering and monitoring computer data should be
established.
       Management’s Response: IRS management agreed with this recommendation.
       Management will continue improving the manner in which published guidance is tracked
       on the computer inventory system and explore the possibility of securing a replacement
       system with the IRS Modernization and Information Technology Systems organization.

The Pilot Program Increased Public Awareness Without Creating
Additional Risk, but Success Could Not Be Objectively Measured
During the pilot program explained in Notice 2007-17, Counsel took the extra, upfront step of
requesting information from the general public before it began working on the guidance to be
published. During traditional guidance projects, Counsel may contact stakeholders that it thinks
have information about the subject, but it does not request information from the general public.
By announcing its need for information publicly in the pilot program, Counsel increased the
public’s awareness of the process. Furthermore, the pilot program did not directly create tax
guidance and did not replace the traditional guidance process. It is a preliminary research step to
obtain information and determine if a guidance project should be started. The development of
the pilot program and subsequent evaluation of public submissions employed the same internal
controls to ensure that public influence remained as equitable as in the traditional guidance
process.
Counsel intended the pilot program to increase the public’s participation during the initial
development of some guidance projects. Because interested parties would provide the
background research, Counsel hoped the pilot program would allow it to develop tax guidance
faster and with fewer resources. However, Counsel could have difficulty in objectively
evaluating the overall success of the pilot program because it does not have an adequate baseline
against which to compare the results.


                                                                                           Page 15
                     The Published Guidance Program Needs Additional Controls to
                            Minimize Risks and Increase Public Awareness



The pilot program ensured equitable public influence and increased public
awareness
As stated earlier, development of guidance under the pilot program followed the traditional
process with the same internal controls, including the participation, circulation, and approval by
Counsel, IRS operations, and the OTP. In addition, the evaluation of public submissions and
subsequent clarification meeting also involved multiple Federal Government parties: Counsel,
IRS operations, and the OTP. Further, the pilot program appears to be a more transparent
process and resulted in greater public awareness. Specifically:
       •   The pilot publicly announced that Counsel and the OTP were seeking information. Had
           the traditional process been used, the drafting team would have made direct contact with
           public stakeholders that they thought would be able to provide the information. The
           general public would not have been informed of the contact.
       •   Public stakeholders involved with the traditional guidance process advised us that the
           pilot program’s research step involved no differences from the traditional process, except
           for providing an opportunity for public scrutiny of the process and a written outline for
           specific information needed by Counsel.
       •   Counsel provided the public submissions received from the pilot program to three tax
           news services21 for posting to their web sites, so the public could view all of the
           submissions.
       •   Attention by Congress and the media not only put the pilot program on notice that it
           would be watched but possibly alerted more of the public to the guidance process.
Counsel did not create written procedures for the pilot program because it was testing the
process. Future guidance projects following a process similar to that of the pilot will have an
increased chance for success if Counsel has specific procedures that explain how the process
works. Written procedures will also ensure consistency and accountability in different projects.
However, if Counsel decides to continue with this process, it should develop written
organizational procedures based on the lessons learned during the pilot program and any
additional test projects conducted during the pilot.

Counsel may have difficulty evaluating the success of the pilot program
Counsel stated it will attempt to evaluate the success of the pilot program after the related
proposed regulation is published. Although Counsel has not yet determined a means to evaluate
the pilot program, it will consider whether it accomplished the following:




21
     Tax Analysts, Commerce Clearing House, and Bureau of National Affairs.
                                                                                             Page 16
                The Published Guidance Program Needs Additional Controls to
                       Minimize Risks and Increase Public Awareness



   •   Allowed interested parties an opportunity to provide input through a process that was
       transparent to other interested parties and the general public.
   •   Identified previously unknown members of the public interested in the guidance.
   •   Produced a quality product in less time than the traditional guidance process.
   •   Reduced staff resources used by Counsel and the OTP in developing and publishing
       guidance.
   •   Addressed concerns of all interested parties in the proposed regulation and reduced the
       likelihood that significant issues will be raised before publication of the final regulation.
Although the pilot program showed greater public awareness, the test project did not clearly
demonstrate greater public participation or identify previously unknown members of the public
interested in the guidance. Counsel received three public submissions to Notice 2007-17. The
primary participants were known by Counsel before the pilot program started. Consequently, the
pilot program did not appear to have resulted in more parties submitting information. In
addition, Counsel does not know whether direct contact with known participants during the
traditional process would have revealed similar information.
Counsel may find it difficult to evaluate whether the pilot process helped to improve timeliness
of guidance and efficient use of resources because Counsel has incomplete baseline information
for comparison. Counsel will need to manually review past traditional projects for comparable
information on completion time and resources. In addition, many of the benefits could be
subjective, such as assessing the public concerns, responses, and comments to the proposed and
final regulation process related to the pilot program. This evaluation is important but can be
judgmental and incomplete if not compared to results of similar projects developed using the
traditional process.

Recommendation
Recommendation 7: If the process described in Notice 2007-17 is to be continued on future
potential guidance projects, the Chief Counsel should develop written organizational procedures
for the process, including a methodology by which to evaluate the results.
       Management’s Response: IRS management agreed with this recommendation.
       Management will work a few additional projects under the pilot process. If the pilot
       program becomes part of the guidance process in the future, management will develop
       written procedures for the process, including a methodology by which to evaluate results.




                                                                                             Page 17
                  The Published Guidance Program Needs Additional Controls to
                         Minimize Risks and Increase Public Awareness



                                                                                          Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Office of Chief Counsel (Counsel)
process and related controls for developing tax guidance, including the pilot guidance program
described in Notice 2007-17.1 Our review focused on the process and internal controls for the
publishing guidance program and did not evaluate Counsel’s decisions to use specific language
within published tax guidance.
Throughout this review, we interviewed and obtained documentation from Counsel personnel
that included the Chief Counsel, Deputy Chief Counsels, Associate Chief Counsels, Deputy
Associate Chief Counsels, Division Counsels, Special Counsels, attorneys, assistants, and
analysts. We also interviewed and obtained documentation from representatives within
IRS operations, including the Large and Mid-Size Business Division, the Small Business/
Self-Employed Division, the Tax Exempt and Government Entities Division, the Wage and
Investment Division, the Office of Appeals, and the Office of the National Taxpayer Advocate.
In addition, we contacted a group of public stakeholders by interviewing representatives from the
American Bar Association, the American Institute of Certified Public Accountants, and the
Mortgage Bankers Association.
To accomplish our objective, we:
I.      Evaluated the traditional process and related internal controls for developing published
        tax guidance.
        A. Interviewed Counsel personnel and reviewed their manual for the procedures used to
           develop the guidance business plan and specific tax guidance.
        B. Interviewed Counsel personnel and reviewed supporting documentation to evaluate
           how guidance issues were requested, obtained, and selected for the
           2007-2008 Priority Guidance Plan. This included interviews with representatives
           from IRS operations, their applicable Division Counsels, and public stakeholders for
           their involvement in and opinions of the process.
        C. Determined whether Counsel is communicating or meeting with public stakeholders
           and whether the general public is adequately informed of such contacts. This
           included an evaluation of the process to notify the public when projects are selected



1
 Modifications of Commercial Mortgage Loans Held by a REMIC (Notice 2007-17), page 748 of Internal Revenue
Bulletin 2007-12 (March 19, 2007). REMIC = Real Estate Mortgage Investment Conduit.
                                                                                                  Page 18
                   The Published Guidance Program Needs Additional Controls to
                          Minimize Risks and Increase Public Awareness



             and finalized, review of a judgmental sample of 25 guidance projects2 for contacts
             during the development of published guidance, and interviews with representatives
             from IRS operations and public stakeholders for their involvement in and opinions of
             the process.
        D. Evaluated the development of guidance projects for common barriers that impede the
           issuance of tax guidance and to determine whether there were deviations from the
           standard process that may indicate a bias or inequitable public influence.
             1. Reviewed a judgmental sample of 25 guidance projects to determine possible
                impediments (e.g., coordination problems, gaps in activity, and delays). We also
                reviewed the sample to determine whether there were adequate internal controls,
                including management review and approvals to prevent inequitable public
                influence. This involved reviewing paper case files and electronic data on the
                computer inventory system and interviewing a drafting team member involved
                with each of the sample projects.
             2. Interviewed representatives from IRS operations and public stakeholders for
                possible impediments and indications of inequitable public influence on Counsel
                actions to publish tax guidance.
        E. Evaluated how Counsel monitors the published guidance program.
             1. Reviewed Counsel’s Business Performance Reviews from FYs 2003 through
                2007 for project time and staff resources used to develop tax guidance.
             2. Interviewed Counsel personnel to determine their methods of monitoring
                guidance projects. We also reviewed Counsel task force results for previously
                identified problems with the monitoring of guidance projects.
             3. Reviewed the content and distribution of computer inventory system reports and
                other summary reports used by Counsel management to monitor guidance
                projects.
             4. Analyzed a computer extract from the Counsel Automated System Environment
                Management Information System for all guidance projects in open status or
                created after the beginning of the 2003-2004 business year (July 1, 2003). This
                included a review for reliability of data on the system, completeness of the


2
  Due to resource constraints, we selected a judgmental sample of guidance projects to ensure we obtained a variety
of projects (five regulations with a previous temporary regulation, five regulations with a previous proposed
regulation, five notices, five revenue procedures, and five revenue rulings) and included projects from each of the
seven Associate Chief Counsel offices responsible for different sections of the I.R.C. The population identified
from the Counsel Automated System Environment Management Information System included 293 guidance projects
completed during the 2006-2007 business year that ended June 30, 2007.
                                                                                                         Page 19
                The Published Guidance Program Needs Additional Controls to
                       Minimize Risks and Increase Public Awareness



              guidance business plan, indicators of possible delays in publishing guidance, and
              adequacy of identifying administrative processing errors. We validated the
              extract by performing specialized queries and comparing extracted data for 25 test
              guidance projects to computer system screen prints.
II.    Evaluated the pilot guidance program described in Notice 2007-17 and its possible effect
       on developing published tax guidance.
       A. Interviewed Counsel personnel and reviewed supporting documentation to determine
          the reason the pilot program was created, how it operated, how public submissions
          were evaluated, and the factors/expectations Counsel used to evaluate the pilot’s
          results.
       B. Reviewed the Notice 2007-17 paper case file and electronic data on the computer
          inventory system to determine the extent of tax law that will be developed under the
          pilot program and whether future tax guidance will be similarly developed.
       C. Evaluated Counsel’s contacts with outside stakeholders before and after the
          submission deadline, the number of public submissions–including who provided each
          submission–and Counsel’s final determination. This included interviews with
          Counsel personnel, representatives from IRS operations, and representatives from the
          Mortgage Bankers Association.
       D. Interviewed Counsel personnel and reviewed supporting documentation to determine
          how the pilot program differs from the traditional process for developing tax
          guidance. This included interviews with representatives from IRS operations and
          public stakeholders.
       E. Determined whether Counsel had controls in place for the pilot program, such as a
          review process to prevent the appearance of inequitable public influence. This
          included interviews with representatives from IRS operations and public stakeholders
          for their perception of Counsel’s ability to prevent inequitable influence.
Internal Controls Methodology
Internal controls relate to the plans, methods, and procedures management uses to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: Parts 30 and 32 of the Chief Counsel
Directives Manual and the July 18, 2001, Chief Counsel Business Rules Handbook. We
reviewed these controls by interviewing Counsel personnel, IRS division management, and
outside stakeholders affected by published guidance, analyzing a judgmental sample of closed
published guidance projects, and reviewing Manual and interim guidance for procedures used to
develop published guidance.

                                                                                        Page 20
               The Published Guidance Program Needs Additional Controls to
                      Minimize Risks and Increase Public Awareness



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Diana M. Tengesdal, Acting Director
Janice M. Pryor, Audit Manager
Aaron R. Foote, Lead Auditor
John W. Baxter, Senior Auditor
Michael J. Hillenbrand, Senior Auditor




                                                                                    Page 21
               The Published Guidance Program Needs Additional Controls to
                      Minimize Risks and Increase Public Awareness



                                                                  Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Communications and Liaison CL
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Counsel CC




                                                                        Page 22
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



                                                                                   Appendix IV

            Office of Chief Counsel General Process
                 to Evaluate Suggestions for the
               2007-2008 Guidance Business Plan

•   Internal and external suggestions for guidance projects were sent to the applicable Associate
    office(s). Associate offices coordinated their work if a suggestion involved multiple tax
    areas.
•   Each Associate office screened the suggestions, combining similar suggestions and rejecting
    others if guidance was not the appropriate avenue with which to solve the issue. Examples of
    rejected suggestions include when legislative change was required or when the law was clear
    but clarification may be necessary by the IRS (e.g., clarifying tax form instructions). If
    applicable, rejected suggestions were forwarded to IRS operations for consideration.
•   If necessary, the Office of Chief Counsel (Counsel) contacted the Department of the
    Treasury, IRS operations, and/or external source(s) to clarify the suggestion or to obtain
    details from another source to determine if there was an alternative perspective.
•   Each Associate office determined the number of carryover and mandatory projects expected
    for the coming business year. Mandatory projects can include requirements in which
    legislation specifies that Counsel will develop further guidance, new legislation with
    imminent enactment dates that need guidance, final regulations to replace temporary
    regulations that are set to expire, and ministerial rulings. In addition, each Associate office
    determined available staff resources for the coming business year, including the availability
    of Department of the Treasury personnel to assist with the guidance.
•   Each Associate office initially selected new projects for the business plan as well as projects
    already being worked within its assigned tax areas. It considered new suggestions, old
    suggestions, research projects to be converted to a guidance project, and expected future
    legislation that will require guidance. Counsel also provided feedback and discussed with
    IRS operations the reasons it did not select some projects. Counsel has no quantifiable
    measuring process to prioritize suggestions. Each Associate office judgmentally ranked the
    suggestions based on factors such as how it promotes tax administration, how it affects
    taxpayers, uniform application of tax laws, and simplification of rules.
•   After each Associate office made its initial selections, the projects were combined into a
    master list that was distributed among the Associate offices for review. This master list was


                                                                                            Page 23
                 The Published Guidance Program Needs Additional Controls to
                        Minimize Risks and Increase Public Awareness



    discussed for related projects, resource requirements, and priority. If necessary, the master
    list was updated and redistributed.
•   The master list was provided to the Deputy Chief Counsels and Chief Counsel for review and
    discussion.
•   Counsel and the OTP discussed and agreed on the planned projects, including which projects
    would be included on the Priority Guidance Plan. Although this is the final step for
    developing the business plan, OTP personnel can be involved anywhere in the process that
    they or Counsel determine is necessary.




                                                                                           Page 24
                      The Published Guidance Program Needs Additional Controls to
                             Minimize Risks and Increase Public Awareness



                                                                                     Appendix V

        Office of Chief Counsel Internal Controls for the
              Development of Published Guidance

•     The Associate Chief Counsels are responsible for preparing published guidance and
      assigning an attorney and reviewer to a project. The OTP assigns an attorney-advisor to the
      project.
•     Projects are discussed with higher levels of Counsel and OTP management. In FY 2007,
      Counsel established biweekly discussions for management to monitor progress and provide
      guidance.
•     Both Counsel and OTP personnel are involved with public stakeholder contacts.
•     Counsel discusses public stakeholders’ information with the OTP and, if necessary,
      coordinates with IRS operations.
•     Counsel does not discuss with public stakeholders how information will be used or the
      direction the guidance is taking during public contact (speeches, seminars, and panels) or
      during contact with a public stakeholder until after the guidance has been published.
•     Contact with outside stakeholders is to be documented in the project file, which can be
      requested by the public under the Freedom of Information Act.1 However, we determined the
      documentation and storage requirements for project files could be better enforced.
•     Before being formally routed for approval, all draft guidance is circulated to Counsel offices,
      IRS operations, and the OTP. Comments or concerns raised at any level are shared with all
      parties and addressed before the draft guidance is forwarded for final approval.
•     Formal routing for approval includes Counsel management (Branch, Associate, and Chief
      Counsel offices), the IRS Commissioner office, and Department of the Treasury offices.
•     Approved guidance is provided to the public and may request comments from the public. All
      public written comments received by Counsel are made available, unedited, to the general
      public. In addition, there can be a public hearing before final regulation guidance is
      developed.




1
    5 U.S.C. Section 552.
                                                                                             Page 25
    The Published Guidance Program Needs Additional Controls to
           Minimize Risks and Increase Public Awareness



                                                    Appendix VI

Management’s Response to the Draft Report




                                                          Page 26
The Published Guidance Program Needs Additional Controls to
       Minimize Risks and Increase Public Awareness




                                                      Page 27
The Published Guidance Program Needs Additional Controls to
       Minimize Risks and Increase Public Awareness




                                                      Page 28
The Published Guidance Program Needs Additional Controls to
       Minimize Risks and Increase Public Awareness




                                                      Page 29
The Published Guidance Program Needs Additional Controls to
       Minimize Risks and Increase Public Awareness




                                                      Page 30
The Published Guidance Program Needs Additional Controls to
       Minimize Risks and Increase Public Awareness




                                                      Page 31
